Audit Report




OIG-13-030

Treasury Implemented the Mortgage Backed Securities Purchase
Program Consistent With Its Authorities, But Needs to Improve
Oversight of Financial Agents

January 3, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report……………………………………………………………….………………….. 1

Results of Audit ............................................................................................... 4

    Treasury’s Monitoring Activities Were Not Well Documented ............................ 4

    Financial Agents Were Not Required to Establish Physical Barriers When
    Purchasing Agency MBS on Behalf of Treasury ............................................... 7

Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              11
    Appendix     2:      Background..........................................................................   13
    Appendix     3:      Management Response .........................................................          16
    Appendix     4:      Major Contributors to This Report ...........................................          18
    Appendix     5:      Report Distribution ................................................................   19

Abbreviations

    FAA                  financial agency agreement
    Fannie Mae           Federal National Mortgage Association
    Freddie Mac          Federal Home Loan Mortgage Corporation
    FRB                  Board of Governors of the Federal Reserve System
    GSE                  government-sponsored enterprise
    HERA                 Housing and Economic Recovery Act of 2008
    HFA                  Housing Finance Agency
    JAMES                Joint Audit Management Enterprise System
    LIBOR                London Interbank Offered Rate
    MBS                  mortgage backed securities
    OAS                  option adjusted spread
    OIG                  Office of Inspector General
    repo                 repurchase agreement
    SEC                  Securities and Exchange Commission
    U.S.C.               United States Code




                         Treasury Implemented the MBS Purchase Program Consistent With                      Page i
                         Its Authorities, But Needs to Improve Oversight of Financial Agents
                         (OIG-13-030)
          This page intentionally left blank.




Treasury Implemented the MBS Purchase Program Consistent With         Page ii
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
                                                                                             Audit
OIG
The Department of the Treasury
                                                                                             Report
Office of Inspector General




                       January 3, 2013

                       Mary John Miller
                       Under Secretary for Domestic Finance

                       Richard Gregg
                       Fiscal Assistant Secretary

                       Section 1117 of the Housing and Economic Recovery Act of
                       2008 (HERA)1 authorized the Secretary of the Treasury to
                       purchase obligations and securities issued by the Federal
                       National Mortgage Association (Fannie Mae), the Federal Home
                       Loan Mortgage Corporation (Freddie Mac), and the Federal
                       Home Loan Banks. 2 The Department of the Treasury’s
                       (Treasury) authority to make these purchases ended on
                       December 31, 2009. Section 1117 also authorized Treasury to
                       sell or otherwise exercise any rights received in connection with
                       these purchases, at any time.

                       The Agency Mortgage Backed Securities (MBS) Purchase
                       Program is one of several programs that Treasury established
                       under its HERA authorities. 3 Under the Agency MBS Purchase
                       Program, in response to the financial crisis at the time, Treasury
                       purchased and sold, acting through financial agents, MBS
                       guaranteed by Fannie Mae and Freddie Mac (these securities are

1
  Pub.L. 110-289
2
  Fannie Mae, Freddie Mac, and the Federal Home Loan Banks are government-sponsored
enterprises (GSE). The GSEs are corporations chartered by Congress. As originally conceived, the
GSEs were chartered to: provide stability in the secondary market for residential mortgages, respond
appropriately to the private capital market, provide ongoing assistance to the secondary mortgage
market by increasing the liquidity of mortgage investments and improving the distribution of
investment capital available, promote access to mortgage credit throughout the nation, and manage
and liquidate federally-owned mortgage portfolios in an orderly manner.
3
  In addition to the Agency MBS Purchase Program, Treasury established the Housing Finance
Agency (HFA) Initiative and entered into Senior Preferred Stock Purchase Agreements with Fannie
Mae and Freddie Mac. We are conducting separate audits of both the HFA Initiative and the stock
purchase program.

                       Treasury Implemented the MBS Purchase Program Consistent With             Page 1
                       Its Authorities, But Needs to Improve Oversight of Financial Agents
                       (OIG-13-030)
                      commonly referred to as “agency MBS”). In total, before its
                      purchase authority expired, Treasury purchased $225 billion
                      agency MBS, beginning in September 2008. As market
                      conditions improved, Treasury began selling its agency MBS in
                      March 2011. On March 19, 2012, Treasury reported that it sold
                      its entire agency MBS portfolio, receiving $250 billion for it in
                      total.

                      In July 2012, we issued an audit report related to Treasury’s
                      selection process of financial agents for this program. In that
                      report, we found that Treasury did not fully document its
                      process for selecting the financial agents to manage its portfolio
                      for the program. 4,5

                      This report presents the results of our audit of Treasury’s
                      Agency MBS Purchase Program. As part of our audit, we
                      assessed (1) Treasury’s execution of the Agency MBS Purchase
                      Program and (2) Treasury’s oversight of the financial agents it
                      hired to execute the program on its behalf. 6 To accomplish our
                      objectives, we reviewed relevant laws and regulations, program-
                      related documents provided by Treasury officials, and
                      investment-related documents obtained from the financial
                      agents. We also interviewed Treasury officials and the financial
                      agents’ senior management and staff. Appendix 1 details our
                      objectives, scope, and methodology; and appendix 2 provides
                      more detailed background information about HERA and the
                      Agency MBS Purchase Program.

                      In brief, we found that Treasury executed the Agency MBS
                      Purchase Program consistent with its authorities under HERA.
                      Treasury implemented the Agency MBS Purchase Program in an


4
  Congress gave Treasury authority to designate a variety of depository institutions as financial
agents of the United States, and to require them to perform “all such reasonable duties as may be
required.” See, e.g., 12 U.S.C. 90 (national banking associations); 12 U.S.C. 265 (insured banks).
5
  Treasury’s Financial Agent Selection Process for the Agency Mortgage Backed Securities Purchase
Program Was Not Fully Documented (OIG-12-061; issued July 31, 2012)
6
  In September 2008, Treasury hired State Street Bank and Trust Company (State Street) and the
New York Branch of Barclays Bank PLC (Barclays) as asset managers of the MBS portfolios, and
JPMorgan Chase Bank N.A. (JPMorgan Chase) as custodian for the Agency MBS Purchase Program.
Treasury amended its agreements with State Street and JPMorgan Chase in late 2009 to include
services for the HFA Initiative.

                      Treasury Implemented the MBS Purchase Program Consistent With             Page 2
                      Its Authorities, But Needs to Improve Oversight of Financial Agents
                      (OIG-13-030)
                       effort to stabilize the mortgage market at a time of
                       unprecedented volatility and illiquidity as a result of the financial
                       crisis. 7

                       Treasury officials worked with its financial agents – State Street
                       Bank and Trust Company (State Street) and the New York
                       Branch of Barclays Bank PLC (Barclays) – to develop strategic
                       parameters for their trading activities while maintaining ongoing
                       communication with the financial agents’ senior management
                       and staff. Treasury officials monitored their daily transactions
                       and performed site visits to the financial agents’ trading floors.
                       However, they did not document these activities well.

                       In addition, the financial agents were subject to requirements
                       under their financial agency agreements (FAA) with Treasury
                       when executing trades on behalf of Treasury. Section 6 of the
                       FAA states that the financial agent shall safeguard and protect
                       confidential information regarding Treasury’s business,
                       economic and policy plans, nonpublic financial and asset
                       information, trade secrets, information subject to the Privacy
                       Act of 1974, 8 personally identifiable information, and sensitive
                       but unclassified information. Due to the frequent
                       communications with Treasury officials over the phone, we
                       believe that some form of physical barriers for the traders
                       executing trades for Treasury should have been provided to
                       meet the intent of the agreement. However, during our site
                       visits, we noted that there were no physical barriers established
                       to separate the traders.

                       The Agency MBS Purchase Program has ended, but we believe
                       it is useful to make the following recommendations in the event
                       Treasury needs to carry out a similar program going forward.

7
  The crisis began in the summer of 2007 when mortgage defaults accelerated at an unprecedented
rate due to the downturn of the housing boom. By September 2008, major financial institutions
such as Countrywide Financial Corporation, Bear Stearns Companies, Inc., and IndyMac Bank failed,
and Fannie Mae and Freddie Mac, the largest purchasers and guarantors of home loans in the
mortgage market, became severely stressed.
8
  5 U.S.C. § 552a. The law protects certain federal government records pertaining to individuals. In
particular, the law covers systems of records that an agency maintains and retrieves by an
individual’s name or other personal identifier (e.g., social security number). In general, the law
prohibits unauthorized disclosures of the records it protects.

                       Treasury Implemented the MBS Purchase Program Consistent With              Page 3
                       Its Authorities, But Needs to Improve Oversight of Financial Agents
                       (OIG-13-030)
              We recommend that, if a similar situation arises in the future
              when Treasury would need the services of financial agents to
              trade securities on its behalf, Treasury should (1) document its
              monitoring activities over the financial agents and (2) assess the
              need for separate physical barriers to ensure the safeguarding
              and protection of confidential information.

              In a written response, included as appendix 3 of this report,
              Treasury management accepted both of our recommendations.
              The Office of the Fiscal Assistant Secretary will need to record
              the specific planned corrective actions to the recommendations
              and estimated completion dates in the Joint Audit Management
              Enterprise System (JAMES), the Department’s audit
              recommendation tracking system.

Results of Audit
              Treasury’s Monitoring Activities Were Not Well
              Documented
              Treasury officials monitored the financial agents’ execution of
              the Agency MBS Purchase Program, but they did not fully
              document their monitoring activities. Treasury officials
              communicated the program goals to the financial agents and
              worked with the financial agents to make sure the program’s
              goals were achieved. In doing so, Treasury officials monitored
              the daily program operations of State Street and Barclays by
              receiving daily summaries of transactions and settlements from
              the traders. Financial agents’ employees also made weekly calls
              to the Treasury officials to discuss program status and strategy,
              conducted quarterly reviews, and held conference calls at the
              request of Treasury officials. In addition, the financial agents
              delivered annual certifications to Treasury on certain matters
              specified in the FAA, including that the charges and expenses
              charged were accurate and attributable to services provided to
              Treasury.

              Over a 30-month period, from September 2008 to March 2011,
              Treasury officials made three site visits to State Street and one


              Treasury Implemented the MBS Purchase Program Consistent With         Page 4
              Its Authorities, But Needs to Improve Oversight of Financial Agents
              (OIG-13-030)
                       site visit to Barclays. 9 Treasury officials did not document these
                       site visits. According to a Treasury official, the purpose of the
                       first two site visits to State Street and the visit to Barclays was
                       to discuss investment strategies for security purchases. The site
                       visit made in March 2011 to State Street assessed the ethical
                       wall in preparation for winding down the agency MBS
                       portfolio. 10

                       Despite the frequent contacts and oversight of the financial
                       agents, Treasury left little in the way of documentation to
                       evidence their monitoring activities over the financial agents.
                       For example, Treasury officials told us that they had held
                       weekly calls with the traders at the financial agents and
                       performed site visits to observe and discuss investment
                       strategy. However, they could not provide documentation to
                       support such activities.

                       Internal control standards of the federal government apply to
                       Treasury programs and operations. Those standards provide
                       that internal control and all transactions and other significant
                       events need to be clearly documented, and the documentation
                       be readily available for examination. The requirement for
                       documentation should appear in management directives,
                       administrative policies, or operating manuals in paper or
                       electronic form. All documentation and records should be
                       properly managed and maintained. 11



9
  Treasury terminated its FAA with Barclays in December 2009 at the expiration of Treasury’s
authority to purchase agency MBS. At that time, the remainder of the Barclays’ agency MBS
portfolio was transferred to State Street.
10
   An ethical wall is a zone of non-communication established within an organization. This zone is
established to help prevent conflicts of interest that might result in the inappropriate release of
sensitive information. Ethical walls are designed to prevent the flow of material non-public
information about a public company or its securities from employees who receive material non-
public information in the course of their employment to other employees of the same company
performing investment management activities. An example of an ethical wall in an investment
organization is one where brokers are not allowed to talk to market researchers who may have
information that is not available to the general public. Because market researchers may have
confidential information that might influence a broker, regulatory requirements frequently state that
those two groups must be prevented from communicating in any way.
11
   U.S. Government Accountability Office, Standards for Internal Control in the Federal Government,
November 1999.

                       Treasury Implemented the MBS Purchase Program Consistent With               Page 5
                       Its Authorities, But Needs to Improve Oversight of Financial Agents
                       (OIG-13-030)
Additionally, Treasury established its own documentation
requirements in Treasury Directive Publication 80-05, Records
and Information Management Program, which states that all
program officials shall create and maintain adequate and proper
documentation of the program for which they are responsible.
This means a record of the conduct of government business
that is complete and accurate to the extent required to
document the organization, functions, policies, decisions,
procedures, and essential transactions of their office and to
protect the legal and financial interest of the government and of
persons directly affected by the activities of their office.

These documentation requirements were not followed by the
Treasury officials when monitoring the financial agents. A
Treasury official attributed the lack of documentation to a
limited number of staff available to implement the program. He
also added that during normal government operations,
monitoring processes, including site visits, would be
documented. However, because he believed the situation was
exigent, and the program was sensitive in nature, the team
focused on the higher-priority program operations as opposed to
the administrative documentation procedures. The official also
told us that Treasury relied on the financial agents’ own system
of internal control, which included independent audit reports on
the controls, in carrying out their fiduciary responsibilities. While
we understand the extraordinary circumstances the Treasury
officials faced while implementing the program, we believe
documentation would not have taken much time or resources as
it could have been simple annotations or short notes to record
the monitoring activities.

Because the monitoring activities were not well documented,
we could not verify whether Treasury officials made adequate
assessments of the trading environment at the financial agents
during the site visits.

Recommendation

We recommend that the Fiscal Assistant Secretary develop
policies and procedures that include documentation


Treasury Implemented the MBS Purchase Program Consistent With         Page 6
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
requirements for the operations of future programs that may use
a financial agent’s services.

Management Response

Treasury management accepted the recommendation.

Financial Agents Were Not Required to Establish
Physical Barriers When Purchasing Agency MBS on
Behalf of Treasury
We performed site visits to verify whether the financial agents
were in compliance with the ethical wall provision in Section 10
of the FAA. That provision stated that the financial agent shall
employ suitably robust internal controls to ensure that its
personnel and affiliates do not divulge information regarding
Treasury’s portfolio to other personnel involved with the
financial agents’ trading, brokerage, sales, or other activities
that may conflict with its duties to Treasury.

We observed the seating arrangements of the traders and
portfolio managers to assess whether the traders working for
Treasury were either isolated or distanced from other traders to
limit the flow of their trading information. We noted that there
were no notable physical barriers between the traders working
for Treasury and other traders. The traders sat near other fixed-
income traders during the agency MBS purchase phase. At
State Street, the trader and the portfolio manager working for
Treasury sat one section apart from other portfolio managers,
who had the capability to issue trade orders. In March 2011,
prior to the announcement of the disposition of the portfolio, at
the request of Treasury officials, State Street’s agency MBS
team was moved from the trading floor to an area near the
information technology department. When we visited Barclays,
we noted one trader conducting business on behalf of Treasury,
performing both trade and portfolio management functions. He
sat next to securitized asset traders until replaced by another
trader in February 2009. The new trader was placed in a
separate office for his exclusive use shortly after he assumed
the job. The previous trader told us that before he was replaced
by the new trader, he used an empty conference room on the

Treasury Implemented the MBS Purchase Program Consistent With         Page 7
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
                       trade floor whenever he needed to talk to Treasury officials.
                       According to Barclays’ management, the trader did not have an
                       office due to space limitations at the time.

                       The Securities and Exchange Commission’s (SEC) Guide to
                       Broker-Dealer Registration describes the firms’ duty to protect
                       clients from the misuse of non-public information. It requires
                       written policies and procedures reasonably designed to prevent
                       employees from misusing material non-public information. It also
                       states that firms need to create procedures designed to limit the
                       flow of this information so that employees cannot use the
                       information in trading securities. To limit the flow of such
                       information, SEC recommends procedures such as training,
                       implementing employee trading restrictions, using physical
                       barriers, isolating certain departments, and limiting proprietary
                       trading. 12

                       The Treasury official we interviewed about this issue told us
                       that it was his understanding that the guide applied only to
                       broker-dealers and not to financial agents that were engaged as
                       asset managers. We determined that the financial agents in this
                       case played, in part, a broker’s role because financial agents
                       conducted transactions on behalf of their client, Treasury, and
                       charged fees for their services. 13 Accordingly, we believe that
                       the SEC guidance applies in this situation.

                       The Treasury official also did not believe that there was any
                       need for physical barriers. He said there were adequate
                       compensating controls at the financial agents to mitigate the
                       potential risks that such seating arrangements might cause, and
                       that both financial agents established frameworks to prevent
                       and detect the misuse of non-public information through their
                       respective compliance offices. Those offices monitor insider
                       trading by validating controls and reviewing and performing
                       analyses on trade history. The Treasury official further stated

12
   U.S. Securities and Exchange Commission, Division of Trading and Markets, Guide to Broker-
Dealer Registration, Article V, Section 8, April 2008
13
   A broker-dealer refers to a person or, more often, a firm, that acts as a broker for some
transactions and a dealer for others. That is, a broker conducts transactions on behalf of clients,
and a dealer trades on his/her own account. In practice, most brokerages are, in fact, broker-dealer
firms, and broker-dealers must register with the SEC.

                       Treasury Implemented the MBS Purchase Program Consistent With               Page 8
                       Its Authorities, But Needs to Improve Oversight of Financial Agents
                       (OIG-13-030)
                       that at State Street, a majority of the fixed-income accounts
                       were comprised of passive trades and less than 5 percent of its
                       MBS accounts were comprised of active trades. The Treasury
                       official’s statement about State Street’s trading activities was
                       consistent with information in the financial agent’s proposal
                       submitted in September 2008. 14 We also reviewed Barclays’
                       proposal for the same time period and noted that in June 2008,
                       approximately 16.3 percent of fixed-income accounts were
                       actively managed. The Treasury official said that passive trade
                       strategies do not allow portfolio managers and traders to
                       execute opportunistic trades based on unauthorized use of non-
                       public information because such attempted activity would
                       violate the investment policy and would be detected and
                       reported by the client, the compliance office, and the back
                       offices that report on performance relative to the indices and
                       benchmarks.

                       Whether the compensating controls were robust enough to
                       prevent the divulgence of non-public information was
                       questionable nevertheless. On one hand, the limited active
                       trading does not entirely preclude opportunistic trading. On the
                       other hand, the establishment of trade barriers with the
                       compensating controls is not commensurate with an
                       establishment of communication barriers among the personnel
                       dealing with non-public information. In this regard, the intent of
                       the SEC’s guidance is not so much establishing trade barriers as
                       it is establishing communication barriers.

                       Evidence of Treasury officials’ awareness of the importance of
                       requiring physical barriers is shown in a draft of the FAA that
                       we obtained when we visited Barclays. The ethical wall section
                       of the draft FAA stated that the financial agent shall
                       “adequately segregate” its personnel assigned to manage the
                       Treasury’s portfolio from other personnel. But this requirement
                       was later changed to a less stringent one in the final FAA, in
                       that the financial agent shall employ “suitably robust internal



14
  With passive accounts, a firm invests funds to generate yield based on matching the securities to
an index or market benchmark, and therefore, accounts are not based on discretionary trades to
generate active trading profits.

                       Treasury Implemented the MBS Purchase Program Consistent With             Page 9
                       Its Authorities, But Needs to Improve Oversight of Financial Agents
                       (OIG-13-030)
controls” to ensure that its personnel do not divulge information
regarding Treasury’s portfolio to other personnel.

From our interviews with Barclays’ employees, we found that
the terms of the FAA were changed because Barclays was
reluctant to accept the requirement due to space limitations. But
adequately segregating the single trader did not necessarily
require a separate office. The trader could have, for example,
used a trade desk away from other securitized asset traders.
We believe that requiring the financial agents to use physical
barriers on their trading floor was a best practice of internal
controls for the financial agents and Treasury that should have
been employed given that the financial agents were entrusted
with several hundred billion dollars of taxpayers’ money.

Recommendation

We recommend that for future programs that may require the
trading of securities by a financial agent, the Fiscal Assistant
Secretary should assess the need for separate physical barriers
for the traders executing trades or performing other services on
behalf of Treasury, based on the associated risk, compensating
controls and other possible factors, to ensure the safeguarding
and protection of confidential information. If the Fiscal Assistant
Secretary determines that separate physical barriers are
required, the FAA should stipulate such a requirement.

Management Response

Treasury management accepted the recommendation.

                                    * * * * *

We appreciate the courtesies and cooperation provided to our
staff during the audit. If you wish to discuss the report, you
may contact me at (202) 927-6516 or Michael Maloney, Audit
Director, at (202) 927-6512. Major contributors to this report
are listed in appendix 4.

/s/
Marla A. Freedman
Assistant Inspector General for Audit

Treasury Implemented the MBS Purchase Program Consistent With         Page 10
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
Appendix 1
Objectives, Scope, and Methodology




The objectives of this audit were to assess the Department of
the Treasury’s (Treasury) (1) execution of the Agency Mortgage
Backed Securities (MBS) Purchase Program and (2) oversight of
the financial agents it hired to execute the program on its
behalf.

To accomplish our objectives, we

    •   determined Treasury’s authorities under the Housing and
        Economic Recovery Act of 2008 to purchase and sell
        agency MBS and hire financial agents.

    •   reviewed industry guidance and standards.

    •   obtained and reviewed policies and procedures provided
        by Treasury and financial agents, such as financial
        agency agreements and firewall policies.

    •   reviewed evidence of monitoring activities performed by
        Treasury over the financial agents.

    •   conducted onsite interviews with key agency MBS team
        members at the financial agents and performed
        walkthroughs to inspect the seating arrangements of the
        agency MBS team at Barclays’ San Francisco office and
        State Street’s Boston office. We also obtained and
        reviewed the financial agents’ agency MBS trading
        records.

    •   interviewed the current and former Treasury officials who
        implemented the program and monitored the financial
        agents.

We conducted our fieldwork from May 2011 through January
2012 at Treasury’s Office of Domestic Finance in Washington
D.C., Barclays in San Francisco, California, and State Street in
Boston, Massachusetts.

We conducted this performance audit in accordance with
generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain

Treasury Implemented the MBS Purchase Program Consistent With         Page 11
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
Appendix 1
Objectives, Scope, and Methodology




sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit
objectives.




Treasury Implemented the MBS Purchase Program Consistent With         Page 12
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
                      Appendix 2
                      Background




                      To stabilize the mortgage market during the financial crisis in
                      2008, Treasury exercised its authority under the Housing and
                      Economic Recovery Act of 2008 (HERA) to purchase agency
                      mortgage backed securities (MBS) guaranteed by the two
                      government-sponsored enterprises – Fannie Mae and Freddie
                      Mac – to inject liquidity into the frozen mortgage market. By
                      purchasing these securities in the open market, Treasury sought
                      to broaden access to mortgage funding for current and
                      prospective homeowners and promote stability in the mortgage
                      market. After the inception of the Agency MBS Purchase
                      Program in September 2008, Treasury purchased agency MBS
                      worth approximately $225 billion through two financial agents,
                      State Street Bank and Trust Company (State Street) and the
                      New York Branch of Barclays Bank PLC (Barclays). 15 The two
                      financial agents purchased agency MBS until Treasury’s
                      purchase authority under HERA expired on December 31, 2009.
                      At that time, Treasury determined that only one financial agent
                      was necessary to manage the agency MBS portfolio and
                      consequently, ended the relationship with Barclays. Barclays’
                      agency MBS portfolio was transferred to State Street.

                      The Board of Governors of the Federal Reserve System (FRB)
                      entered the agency MBS market in January 2009, 4 months
                      after Treasury’s Agency MBS Purchase Program started. The
                      objective of FRB’s program was to lower long-term interest
                      rates by purchasing 30-year agency MBS and provide liquidity
                      to the financial institutions. The expectation was that by
                      increasing liquidity, banks would be able to build their reserves,
                      which would result in less of a need for them to borrow,
                      causing interest rates to fall. The program was managed by the
                      Federal Reserve Bank of New York at the direction of the
                      Federal Open Market Committee. 16 Through its program, which
                      ended in March 2010, FRB purchased $1.25 trillion of agency
                      MBS.


15
   JPMorgan Chase was the third financial agent and it served as the program’s custodian. Smith
Graham Investment Advisors was hired as a contractor to State Street to assist with MBS sales.
16
   The Federal Open Market Committee is a part of FRB, and is the main body to decide on and
implement monetary policies. Specifically, the committee conducts open market operations through
purchases or sales of Treasury securities. In that way, it tries to achieve its dual mandates of
maintaining price stability and sustainable economic growth.

                      Treasury Implemented the MBS Purchase Program Consistent With          Page 13
                      Its Authorities, But Needs to Improve Oversight of Financial Agents
                      (OIG-13-030)
                      Appendix 2
                      Background




                      On March 21, 2011, Treasury announced its decision to dispose
                      of its agency MBS portfolio. The decision was based on the
                      following: (1) the mortgage market was notably improved and
                      managing a large mortgage portfolio was not part of the
                      Department’s mission, (2) the disposition of the agency MBS
                      portfolio was consistent with Treasury’s strategy of divesting
                      the financial assets it acquired through its financial stabilization
                      programs in 2008 and 2009, (3) the disposition would protect
                      taxpayers by locking in unrealized gains from purchasing
                      securities at depressed prices, and (4) the proceeds of sales
                      would lower the borrowing needs for Treasury.

                      In an analysis conducted in November 2010 to assess the MBS
                      market conditions, Treasury officials determined that the market
                      conditions were favorable to divest the agency MBS portfolio
                      because (1) the average mortgage index price was near its
                      highest since September 2008 and (2) the coupon London
                      Interbank Offered Rate (LIBOR) option adjusted spread (OAS), a
                      key indicator that measures the risk premium of the securities,
                      had fallen to a range of where it had been 6 months before. 17,18
                      Treasury officials also predicted that the supply of agency MBS
                      was likely to be negative in 2010 and flat in 2011, while the
                      demands for agency MBS would be steady, implying a
                      continued rise in agency MBS prices and values for the future.
                      The analysis also noted that FRB was committed to buying high-
                      grade fixed-income assets, including agency MBS.

                      The favorable assessment on the MBS market was also
                      supported by State Street’s analytical work that we obtained.
                      As part of the financial agency agreement, State Street
                      provided market analysis services for Treasury. In a presentation
                      to Treasury officials in February 2010, State Street presented a
                      number of financial indicators that suggested improvement in
                      the mortgage market. For example, the Treasury OAS markedly
                      decreased to its pre-crisis level since the market interventions
                      by Treasury and FRB. The LIBOR OAS also decreased


17
   LIBOR is an interest rate at which banks can borrow funds from other banks in the London
interbank market. It is the world’s most widely used benchmark for short-term interest rates.
18
   OAS is calculated as the return from holding an MBS relative to a benchmark, such as a Treasury
yield or swap rate, adjusted for the estimated risk premium associated with a prepayment option.

                      Treasury Implemented the MBS Purchase Program Consistent With            Page 14
                      Its Authorities, But Needs to Improve Oversight of Financial Agents
                      (OIG-13-030)
                      Appendix 2
                      Background




                      substantially since the interventions, indicating a stabilized
                      mortgage market. The mortgage financing costs, measured by
                      the 1-month agency MBS repurchase agreement rate, also
                      declined significantly from the time of the interventions. 19 A
                      cross-sector spread comparison showed that mortgage spreads
                      outperformed relative to other sectors–automobiles, 5-year
                      agency bond, credit cards, and commercial MBS, which State
                      Street believed was the most significant program success
                      metric.

                      After Treasury announced the disposition plan, State Street
                      executed the agency MBS sales, capping it at $10 billion a
                      month but subjecting the amount to change depending on
                      market conditions. Treasury completed the wind down of its
                      agency MBS portfolio by March 2012. Treasury reported that
                      overall, cash returns of $250 billion were received from the
                      agency MBS portfolio through sales, principal, and interest.




19
  Repurchase agreement or repo is the sale of securities with an agreement to buy back the
securities at higher prices at a later date.

                      Treasury Implemented the MBS Purchase Program Consistent With          Page 15
                      Its Authorities, But Needs to Improve Oversight of Financial Agents
                      (OIG-13-030)
Appendix 3
Management Response




Treasury Implemented the MBS Purchase Program Consistent With         Page 16
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
Appendix 3
Management Response




Treasury Implemented the MBS Purchase Program Consistent With         Page 17
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
Appendix 4
Major Contributors to This Report




Michael J. Maloney, Director, Fiscal Service Audits
Myung G. Han, Audit Manager
Annie Y. Wong, Auditor-in-Charge
John B. Gauthier, Auditor-in-Charge
Shaneasha Edwards, Analyst
Eileen J. Kao, Referencer




Treasury Implemented the MBS Purchase Program Consistent With         Page 18
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Under Secretary for Domestic Finance
    Fiscal Assistant Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group
    Office of the Assistant Secretary for Financial Markets
    Office of the Deputy Assistant Secretary for Government
       Financial Policy
    Office of the Deputy Assistant Secretary for Fiscal
        Operations and Policy

Office of Management and Budget

    OIG Budget Examiner




Treasury Implemented the MBS Purchase Program Consistent With         Page 19
Its Authorities, But Needs to Improve Oversight of Financial Agents
(OIG-13-030)
